APPENDIX

TABLE OF CONTENTS
Page
Appendix A— Superseding Ninth Circuit Opinion (September 4, 2019)

la

Appendix B— Ninth Circuit Opinion (March 20, 2018)

13a

Appendix C— Order Denying Rehearing En Banc (October 17, 2019)

21a

la

APPENDIX A

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 17-16756
MICAH JESSOP; BRITTAN ASHJIAN,
Plaintiffs-Appellants,
v.

CITY OF FRESNO; DERIK KUMAGAI; CURT CHASTAIN; TOMAS CANTU,
Defendants-Appellees.

D.C. No. 1:15-cv-00316-DAD-SAB

ORDER AND OPINION

Appeal from the United States District Court
for the Eastern District of California
Dale A. Drozd, District Judge, Presiding
Argued and Submitted December 18, 2018
San Francisco, California
Filed September 4, 2019
Before: MILAN D. SMITH, JR., JACQUELINE H. NGUYEN, Circuit Judges,
and JANE A. RESTANI,* Judge.
Order;
Opinion by Judge Milan D. Smith, Jr.;
Concurrence by Judge Milan D. Smith, Jr.

The Honorable Jane A. Restani, Judge for the United States Court of International Trade,
sitting by designation.

2a
ORDER
The prior opinion in this case, found at Jessop v. City of Fresno, 918 F.3d
1031 (9th Cir. 2019), is hereby withdrawn. A superseding opinion will be filed concurrently with this order. Plaintiffs-Appellants' petition for rehearing en banc remains pending.

OPINION
M. SMITH, Circuit Judge:
Micah Jessop and Brittan Ashjian (Appellants) appeal an order granting a
motion for summary judgment on a defense of qualified immunity. City of Fresno
and Fresno police officers Derik Kumagai, Curt Chastain, and Tomas Cantu (the
City Officers) filed the motion in an action alleging that the City Officers violated
the Fourth and Fourteenth Amendments when they stole Appellants' property during the execution of a search and seizure pursuant to a warrant.
At the time of the incident, there was no clearly established law holding that
officers violate the Fourth or Fourteenth Amendment when they steal property
seized pursuant to a warrant. For that reason, the City Officers are entitled to qualified immunity.
FACTUAL AND PROCEDURAL BACKGROUND
As part of an investigation into illegal gambling machines in the Fresno, California area, the City Officers executed a search warrant at three of Appellants'
properties. The warrant, signed by Fresno County Superior Court Judge Dale
Ikeda, authorized the

3a
seizure] [of] all monies, negotiable instruments, securities, or
things of value furnished or intended to be furnished by any
person in connection to illegal gambling or money laundering
that may be found on the premises . . . [and] [m]onies and records of said monies derived from the sale and or control of said
machines.
If the City Officers found the property listed, they were "to retain it in [their] custody, subject to the order of the court as provided by law."
Following the search, the City Officers gave Appellants an inventory sheet
stating that they seized approximately $50,000 from the properties. Appellants allege, however, that the officers actually seized $151,380 in cash and another
$125,000 in rare coins. Appellants claim that the City Officers stole the difference
between the amount listed on the inventory sheet and the amount actually seized
from the properties.
Appellants brought suit in the Eastern District of California alleging, among
other things, claims against the City Officers pursuant to 42 U.S.C. § 1983 for
Fourth and Fourteenth Amendment violations. The City Officers moved for summary judgment based on qualified immunity. The district court granted the motion
and dismissed all of Appellants' claims.
JURISDICTION AND STANDARD OF REVIEW
We have jurisdiction pursuant to 28 U.S.C. § 1291. We review summary
judgment determinations, and officers' entitlement to qualified immunity, de novo.
Glenn v. Washington County, 673 F.3d 864, 870 (9th Cir. 2011).

4a
ANALYSIS
"The doctrine of qualified immunity protects government officials 'from liability for civil damages insofar as their conduct does not violate clearly established
statutory or constitutional rights of which a reasonable person would have known."
Pearson v. Callahan, 555 U.S. 223, 231 (2009) (quoting Harlow v. Fitzgerald, 457
U.S. 800, 818 (1982)). "In determining whether an officer is entitled to qualified
immunity, we consider (1) whether there has been a violation of a constitutional
right; and (2) whether that right was clearly established at the time of the officer's
alleged misconduct." Lal v. California, 746 F.3d 1112, 1116 (9th Cir. 2014).
I.

Fourth Amendment
The parties dispute whether the City Officers' actions violated the Fourth

Amendment. The City Officers insist that because they seized Appellants' assets
pursuant to a valid warrant, they did not violate the Fourth Amendment. Appellants, by contrast, argue that the City Officers' alleged theft was an unreasonable
seizure under the Fourth Amendment.
Although courts were formerly required to determine whether plaintiffs had
been deprived of a constitutional right before proceeding to consider whether that
right was clearly established when the alleged violation occurred, see Saucier v.
Katz, 533 U.S. 194, 201 (2001), the Supreme Court has since instructed that courts
may determine which prong of qualified immunity they should analyze first. Pearson, 555 U.S. at 236. Addressing the second prong before the first is especially ap-

5a
propriate where "a court will rather quickly and easily decide that there was no violation of clearly established law." Id. at 239. This is one of those cases.
A defendant violates an individual's clearly established rights only when the
state of the law' at the time of an incident provided 'fair warning' to the defendant
that his or her conduct was unconstitutional. Tolan v. Cotton, 572 U.S. 650, 656
(2014) (quoting Hope v. Pelzer, 536 U.S. 730, 741 (2002)). "We do not require a case
directly on point, but existing precedent must have placed the statutory or constitutional question beyond debate." Ashcroft v. al-Kidd, 563 U.S. 731, 741 (2011).
Thus, "[Ole contours of the right must be sufficiently clear that a reasonable official would understand that what he is doing violates that right." Anderson v.
Creighton, 483 U.S. 635, 640 (1987). "[W]e may look at unpublished decisions and
the law of other circuits, in addition to Ninth Circuit precedent." Prison Legal News
v. Lehman, 397 F.3d 692, 702 (9th Cir. 2005).
We have never addressed whether the theft of property covered by the terms
of a search warrant, and seized pursuant to that warrant, violates the Fourth
Amendment.' The only circuit that has addressed that question—the Fourth Circuit—concluded in an unpublished decision that it does. See Mom's Inc. v. Willman,
109 F. App'x 629, 636-37 (4th Cir. 2004). Mom's involved federal agents who failed
to return the plaintiffs watch after the execution of a search warrant. Id. at 633. Relying on the Supreme Court's decision in United States v. Place, 462 U.S. 696 (1983),
I Importantly, we observe that the technical legal question of whether the theft of property
covered by the terms of a search warrant, and seized pursuant to that warrant, violates the Fourth
Amendment is a different question from whether theft is morally wrong. We recognize that theft is
morally wrong, and acknowledge that virtually every human society teaches that theft generally is
morally wrong. That principle does not, however, answer the legal question presented in this case.

6a
the court reasoned that the Fourth Amendment "regulates all U interference" with
an individual's possessory interests in property, "not merely the initial acquisition
of possession." Mom's, 109 F. App'x at 637. Thus, because the agents' theft of the
watch interfered with the plaintiff's interest in it, "such theft violates the Fourth
Amendment." Id.
Although we have not addressed this precise question, our decision in Brewster v. Beck is instructive. 859 F.3d 1194 (9th Cir. 2017). There, officers impounded
the plaintiffs vehicle pursuant to a statute that authorized the seizure of vehicles
when the driver had a suspended license. Id. at 1195. When the plaintiff later "appeared at a hearing . . . with proof that she was the registered owner of the vehicle
and her valid California driver's license," however, the government refused to release the vehicle to her. Id. We reasoned that the Fourth Amendment was implicated by the government's actions because "[t]he Fourth Amendment doesn't become
irrelevant once an initial seizure has run its course." Id. at 1197. Because "[t]he exigency that justified the seizure [of the plaintiffs vehicle] vanished once the vehicle
arrived in impound and [the plaintiff] showed up with proof of ownership and a valid driver's license," we held that the government's impoundment of the vehicle "constituted a seizure that required compliance with the Fourth Amendment." Id. at
1196-97.
Brewster's reasoning suggests that the City Officers' alleged theft of Appellants' property could also implicate the Fourth Amendment. Although the City Officers seized Appellants' money and coins pursuant to a lawful warrant, their con-

7a
tinued retention—and alleged theft—of the property might have been a Fourth
Amendment seizure because "[t]he Fourth Amendment doesn't become irrelevant
once an initial seizure has run its course." Id. at 1197.
Brewster's facts, however, vary in legally significant ways from those in this
case. Whereas Brewster concerned the government's impoundment of a vehicle, id.
at 1195, Appellants argue that the City Officers stole their property. And while
Brewster involved the seizure of property pursuant to an exception to the warrant
requirement, id. at 1196, the City Officers seized Appellants' property pursuant to a
warrant that authorized the seizure of the items allegedly stolen.
Even if the facts and reasoning of Brewster would dictate the outcome of this
case, however, it was not clearly established law when the City Officers executed
the search warrant. The City Officers seized Appellants' property in 2013, but
Brewster was not decided until 2017. For that reason, we need not decide whether
the City Officers violated the Fourth Amendment. The lack of "any cases of controlling authority" or a "consensus of cases of persuasive authority" on the constitutional question compels the conclusion that the law was not clearly established at the
time of the incident. Wilson v. Layne, 526 U.S. 603, 617 (1999). Although the City
Officers ought to have recognized that the alleged theft of Appellants' money and
rare coins was morally wrong, they did not have clear notice that it violated the
Fourth Amendment—which, as noted, is a different question. The Fourth Circuit's
unpublished decision in Mom's—the only case law at the time of the incident holding that the theft of property seized pursuant to a warrant violates the Fourth

8a
Amendment—did not put the "constitutional question beyond debate." al-Kidd, 563
U.S. at 741.
Nor is this "one of those rare cases in which the constitutional right at issue
is defined by a standard that is so 'obvious' that we must conclude . . . that qualified
immunity is inapplicable, even without a case directly on point." A.D. v. Cal. Highway Patrol, 712 F.3d 446, 455 (9th Cir. 2013). We recognize that the allegation of
any theft by police officers—most certainly the theft of over $225,000—is deeply disturbing. Whether that conduct violates the Fourth Amendment's prohibition on unreasonable searches and seizures, however, would not "be 'clear to a reasonable officer.'" Id. at 454 (quoting Brosseau v. Haugen, 543 U.S. 194, 199 (2004) (per curiam)).2
Appellants have failed to show that it was clearly established that the City
Officers' alleged conduct violated the Fourth Amendment. Accordingly, we hold that
the City Officers are protected by qualified immunity against Appellants' Fourth
Amendment claim.
II.

Fourteenth Amendment
Appellants' Fourteenth Amendment claim suffers the same fate. Appellants

argue that the City Officers' theft of their property violated their substantive due
process rights under the Fourteenth Amendment. Assuming that to be true, however, the City Officers are entitled to qualified immunity because that right was not
clearly established. We have not held that officers violate the substantive due pro2 As the district court recognized, such conduct might instead be punishable under California
tort law. Cf. United States v. Jakobetz, 955 F.2d 786, 802 (2d Cir. 1992) ("Jakobetz may be able to
argue that a New York court violated a statutory right under New York law.").

9a
cess clause of the Fourteenth Amendment when they steal property seized pursuant
to a warrant. The Seventh Circuit is the only circuit that has addressed the related
question of whether the government's refusal to return lawfully seized property to
its owner violates the Fourteenth Amendment; it held that the substantive due process clause does not provide relief against that conduct. See Lee v. City of Chicago,
330 F.3d 456, 466-68 (7th Cir. 2003). Because the City Officers could not have
known that their actions violated the Fourteenth Amendment's substantive due
process clause, they are entitled to qualified immunity against Appellants' Fourteenth Amendment claim.
CONCLUSION
We sympathize with Appellants. They allege the theft of their personal property by police officers sworn to uphold the law. If the City Officers committed the
acts alleged, their actions were morally reprehensible. Not all conduct that is improper or morally wrong, however, violates the Constitution. Because Appellants
did not have a clearly established Fourth or Fourteenth Amendment right to be free
from the theft of property seized pursuant to a warrant, the City Officers are entitled to qualified immunity.
AFFIRMED.

M. SMITH, Circuit Judge, specially concurring:
As the panel opinion recognizes, there is no question that the City Officers'
alleged conduct, if true, was morally reprehensible. Whether something violates the

10a
Fourth Amendment, however, is a different question from whether it is outrageous
and morally wrong. I write separately to share my view why, even if Brewster v.
Beck were decided before the City Officers' alleged theft, it is not clear that the officers violated the Fourth Amendment. 859 F.3d 1194 (9th Cir. 2017).
Brewster's reasoning appears to conflict with the Supreme Court's jurisprudence on Fourth Amendment seizures. The Court has defined a seizure as "a single
act, and not a continuous fact." Thompson v. Whitman, 85 U.S. (18 Wall.) 457, 471
(1873). "From the time of the founding to the present, the word 'seizure' has meant
a 'taking possession."' California v. Hodari D., 499 U.S. 621, 624 (1991) (quoting 2
N. Webster, An American Dictionary of the English Language 67 (1828); 2 J. Bouvier, A Law Dictionary 510 (6th ed. 1856); Webster's Third New International Dictionary 2057 (1981)). Whereas Brewster held that the Fourth Amendment continues to
apply after the government's initial seizure of property, these Supreme Court cases
suggest that, once the government has taken possession of property, a seizure is
complete. It is "[p]ossession, which follows seizure, [that] is continuous." Thompson,
85 U.S. (18 Wall.) at 471.
Perhaps because of the Court's case law, Brewster's reasoning also conflicts
with that of several other circuits, which have concluded that the Fourth Amendment provides protection only against the initial taking of property, not its continued retention. See Lee v. City of Chicago, 330 F.3d 456, 460-66 (7th Cir. 2003); Fox
v. Van Oosterum, 176 F.3d 342, 349-51 (6th Cir. 1999); see also Case v. Eslinger, 555
F.3d 1317, 1330 (11th Cir. 2009) (government's continued retention of seized prop-

11a
erty did not violate the Fourth Amendment because the officer "had probable cause
to seize [the plaintiffs] property"); United States v. Jakobetz, 955 F.2d 786, 802 (2d
Cir. 1992) (government's continued retention of seized property implicates "a statutory right under New York law," not the Fourth Amendment).
Here, the City Officers obtained a warrant that authorized them "[t]o seize
all monies . . . or things of value furnished or intended to be furnished by any person in connection to illegal gambling or money laundering that may be found on the
premises." Accordingly, the warrant permitted the City Officers to seize the money
and rare coins that Appellants argue the City Officers stole from them. Under the
reasoning of the Supreme Court and several circuits cited above, therefore, Appellants' Fourth Amendment claim appears to fail. Because the City Officers' initial
seizure of Appellants' property was lawful, and because a Fourth Amendment seizure is complete after the government has taken possession of the property, Appellants would not be able to state a Fourth Amendment claim against the City Officers for their theft of the property after its lawful seizure.
As the opinion notes, Mom's Inc. v. Willman is the only decision to have held
that the theft of property seized pursuant to a warrant violates the Fourth Amendment. 109 F. App'x 629 (4th Cir. 2004). There, the Fourth Circuit relied on United
States v. Place, 462 U.S. 696, 706 (1983) for the proposition that "[Ole Fourth
Amendment regulates all El interference" with a person's property interests, "not
merely the initial acquisition of possession." Id. at 637.

12a
In Place, the Court held that an officer's reasonable suspicion that property
may be involved in a crime permits the officer "to detain the luggage briefly . . . provided that the investigative detention is properly limited in scope." Place, 462 U.S.
at 706. After that brief amount of time has passed, however, probable cause is required to justify an officer's continued seizure of the property. Id. at 709-10. Place
thus addresses when an investigatory seizure of property might be reasonable when
based on a level of suspicion less than probable cause. The case is instructive for
how far officers can go in searching or seizing property without probable cause. But
Place is inapposite in a case such as this in which officers have established probable
cause and obtained a warrant for the property that is seized. Place, therefore, does
not support the weight that Mom's put on it.
Although the question appears to have an obvious answer at first blush, it is
not clear whether the theft of property seized pursuant to the warrant violates the
Fourth Amendment. The Supreme Court was mindful of cases such as this when it
admonished courts not to resolve "difficult and novel questions of constitutional . . .
interpretation that will 'have no effect on the outcome of the case.'" Ashcroft v. alKidd, 563 U.S. 731, 735 (2011) (quoting Pearson v. Callahan, 555 U.S. 223, 236-37
(2009)). We need not attempt to reconcile the conflicting case law. As the panel opinion acknowledges, the lack of clearly established law at the time of the incident
compels the conclusion that the City Officers are entitled to qualified immunity.

13a

APPENDIX B

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 17-16756
MICAH JESSOP; BRITTAN ASHJIAN,
Plaintiffs-Appellants,
v.

CITY OF FRESNO; DERIK KUMAGAI; CURT CHASTAIN; TOMAS CANTU,
Defendants-Appellees.

D.C. No. 1:15-cv-00316-DAD-SAB

OPINION

Appeal from the United States District Court
for the Eastern District of California
Dale A. Drozd, District Judge, Presiding
Argued and Submitted December 18, 2018
San Francisco, California
Filed March 20, 2019
Before: MILAN D. SMITH, JR., JACQUELINE H. NGUYEN, Circuit Judges,
and JANE A. RESTANI,* Judge.
Opinion by Judge Milan D. Smith, Jr.

The Honorable Jane
sitting by designation.

A. Restani, Judge for the United States Court of International Trade,

14a
OPINION
M. SMITH, Circuit Judge:
Micah Jessop and Brittan Ashjian (Appellants) appeal an order granting a
motion for summary judgment on the defense of qualified immunity filed by the
City of Fresno and City of Fresno police officers Derik Kumagai, Curt Chastain, and
Tomas Cantu (City Officers) in an action alleging that the City Officers violated the
Fourth and Fourteenth Amendments when they stole Appellants' property after
conducting a search and seizure pursuant to a warrant.
We need not—and do not—decide whether the City Officers violated the Constitution. At the time of the incident, there was no clearly established law holding
that officers violate the Fourth or Fourteenth Amendment when they steal property
that is seized pursuant to a warrant. For that reason, the City Officers are entitled
to qualified immunity.
FACTUAL AND PROCEDURAL BACKGROUND
As part of an investigation into illegal gambling machines in the Fresno, California area, the City Officers executed a search warrant at three of Appellants'
properties in Fresno. The warrant, signed by Fresno County Superior Court Judge
Dale Ikeda, authorized the
seiz[ure] [of] all monies, negotiable instruments, securities, or
things of value furnished or intended to be furnished by any
person in connection to illegal gambling or money laundering
that may be found on the premises . . . [and] [m]onies and records of said monies derived from the sale and or control of said
machines.

15a
If the City Officers found the property listed, they were "to retain it in [their] custody, subject to the order of the court as provided by law."
Following the search, the City Officers gave Appellants an inventory sheet
stating that they seized approximately $50,000 from the properties. Appellants allege, however, that the officers actually seized $151,380 in cash and another
$125,000 in rare coins. Appellants claim that the City Officers stole the difference
between the amount listed on the inventory sheet and the amount that was actually
seized from the properties.
Appellants brought suit in the Eastern District of California alleging, among
other things, claims against the City Officers pursuant to 42 U.S.C. § 1983 for
Fourth and Fourteenth Amendment violations. The City Officers moved for summary judgment on the basis of qualified immunity. The district court granted the
motion and dismissed all of Appellants' claims.
JURISDICTION AND STANDARD OF REVIEW
We have jurisdiction pursuant to 28 U.S.C. § 1291. We review summary
judgment determinations, and officers' entitlement to qualified immunity, de novo.
Glenn v. Washington County, 673 F.3d 864, 870 (9th Cir. 2011).
ANALYSIS
"The doctrine of qualified immunity protects government officials 'from liability for civil damages insofar as their conduct does not violate clearly established
statutory or constitutional rights of which a reasonable person would have known."'
Pearson v. Callahan, 555 U.S. 223, 231 (2009) (quoting Harlow v. Fitzgerald, 457

16a
U.S. 800, 818 (1982)). "In determining whether an officer is entitled to qualified
immunity, we consider (1) whether there has been a violation of a constitutional
right; and (2) whether that right was clearly established at the time of the officer's
alleged misconduct." Lal v. California, 746 F.3d 1112, 1116 (9th Cir. 2014).
I.

Fourth Amendment
The parties dispute whether the City Officers' actions violated the Fourth

Amendment. The City Officers insist that because they seized Appellants' assets
pursuant to a valid warrant, there was no Fourth Amendment violation. Appellants,
on the other hand, argue that the City Officers' alleged theft was an unreasonable
seizure that violated the Fourth Amendment.
We need not address the merits of the Fourth Amendment claim. Although
courts were formerly required to determine whether plaintiffs had been deprived of
a constitutional right before proceeding to consider whether that right was clearly
established when the alleged violation occurred, see Saucier v. Katz, 533 U.S. 194,
201 (2001), that requirement has been eliminated. The Supreme Court has instructed that courts have the discretion to determine which prong of qualified immunity should be analyzed first. Pearson, 555 U.S. at 236. Indeed, the Court has
urged us to "think carefully before expending 'scarce judicial resources' to resolve
difficult and novel questions of constitutional or statutory interpretation that will
`have no effect on the outcome of the case."' Ashcroft v. al-Kidd, 563 U.S. 731, 735
(2011) (quoting Pearson, 555 U.S. at 236-37). Addressing the second prong before
the first is especially appropriate, therefore, where "a court will rather quickly and

17a
easily decide that there was no violation of clearly established law." Pearson, 555
U.S. at 239. This is one of those cases.
To determine whether a defendant violated an individual's clearly established rights, we must determine "'whether the state of the law' at the time of an
incident provided 'fair warning" to the defendant that his or her conduct was unconstitutional. Tolan v. Cotton, 572 U.S. 650, 656 (2014) (quoting Hope v. Pelzer,
536 U.S. 730, 741 (2002)). "We do not require a case directly on point, but existing
precedent must have placed the statutory or constitutional question beyond debate."
al-Kidd, 563 U.S. at 741. Thus, "Mlle contours of the right must be sufficiently clear
that a reasonable official would understand that what he is doing violates that
right." Anderson v. Creighton, 483 U.S. 635, 640 (1987). "[W]e may look at unpublished decisions and the law of other circuits, in addition to Ninth Circuit precedent." Prison Legal News v. Lehman, 397 F.3d 692, 702 (9th Cir. 2005).
We have never before addressed whether the theft of property covered by the
terms of a search warrant and seized pursuant to that warrant violates the Fourth
Amendment. At the time of the incident, the five circuits that had addressed that
question, or the similar question of whether the government's refusal to return lawfully seized property violates the Fourth Amendment, had reached different results.
Compare Case v. Eslinger, 555 F.3d 1317, 1330 (11th Cir. 2009), Lee v. City of Chicago, 330 F.3d 456, 46066 (7th Cir. 2003), Fox v. Van Oosterum, 176 F.3d 342, 34951 (6th Cir. 1999), and United States v. Jakobetz, 955 F.2d 786, 802 (2d Cir. 1992),
with Mom's Inc. v. Willman, 109 F. App'x 629, 636-37 (4th Cir. 2004).

18a
The Second, Sixth, Seventh, and Eleventh Circuits have held that the government's failure to return property seized pursuant to a warrant does not violate
the Fourth Amendment. Some of these courts have reasoned that because "the word
`seizure' [has been] defined as a temporally limited act," the Fourth Amendment
provides protection only against the initial taking of property, not its continued retention. Lee, 330 F.3d at 462; accord Fox, 176 F.3d at 351 ("[T]he Fourth Amendment protects an individual's interest in retaining possession of property but not
the interest in regaining possession of property."). Others have said that the failure
to return seized property to its owner does not implicate the underlying rationales
of the Fourth Amendment. Jakobetz, 955 F.2d at 802.
The Fourth Circuit, on the other hand, has held that federal agents violate
the Fourth Amendment when they steal property that is seized during the execution of a search warrant. Mom's Inc., 109 F. App'x at 637. The court relied on the
Supreme Court's decision in United States v. Place, 462 U.S. 696, 706 (1983), and
reasoned that the Fourth Amendment "regulates all U interference" with an individual's possessory interests in property, "not merely the initial acquisition of possession." Id. Thus, because the agents' theft of the plaintiff's watch interfered with
the plaintiffs interest in it, "such theft violates the Fourth Amendment." Id.
The absence of "any cases of controlling authority" or a "consensus of cases of
persuasive authority" on the constitutional question compels the conclusion that the
law was not clearly established at the time of the incident. Wilson v. Layne, 526
U.S. 603, 617 (1999). Although the City Officers ought to have recognized that the

19a
alleged theft of Appellants' money and rare coins would be improper, they did not
have clear notice that it violated the Fourth Amendment.
Nor is this "one of those rare cases in which the constitutional right at issue
is defined by a standard that is so 'obvious' that we must conclude . . . that qualified
immunity is inapplicable, even without a case directly on point." A.D. v. Cal. Highway Patrol, 712 F.3d 446, 455 (9th Cir. 2013). The allegation of any theft by police
officers—most certainly the theft of over $225,000—is undoubtedly deeply disturbing. Whether that conduct violates the Fourth Amendment's prohibition on unreasonable searches and seizures, however, is not obvious. The split in authority on the
issue leads us to conclude so. See Wilson, 526 U.S. at 618 (where "judges [1 disagree
on a constitutional question, it is unfair to subject police to money damages for picking the losing side of the controversy").
In the absence of binding authority or a consensus of persuasive authority on
the issue, Appellants have failed to demonstrate that it was clearly established that
the City Officers' alleged conduct violated the Fourth Amendment. Accordingly, we
hold that the City Officers are protected by qualified immunity against Appellants'
Fourth Amendment claim.
II.

Fourteenth Amendment
Appellants' Fourteenth Amendment claim suffers the same fate. Appellants

argue that the City Officers' theft of their property violated their substantive due
process rights under the Fourteenth Amendment. Assuming that to be true, however, the City Officers are entitled to qualified immunity because that right was not

20a
clearly established. We have not held that officers violate the substantive due process clause of the Fourteenth Amendment when they steal property that is seized
pursuant to a warrant. The Seventh Circuit is the only circuit that has addressed
the related question of whether the government's refusal to return lawfully seized
property to its owner violates the Fourteenth Amendment; it held that the substantive due process clause does not provide relief against such conduct. See Lee, 330
F.3d at 466-68. Because the City Officers could not have known that their actions
violated the Fourteenth Amendment's substantive due process clause, they are entitled to qualified immunity against Appellants' Fourteenth Amendment claim.
CONCLUSION
We sympathize with Appellants. They allege the theft of their personal property by police officers sworn to uphold the law. Appellants may very well have other
means through which they may seek relief.' But not all conduct that is improper or
morally wrong violates the Constitution. Because Appellants did not have a clearly
established Fourth or Fourteenth Amendment right to be free from the theft of
property seized pursuant to a warrant, the City Officers are entitled to qualified
immunity.
AFFIRMED.

' Indeed, the district court noted in its Order Granting Defendants' Motion for Summary
Judgment that Appellants "had access to an adequate post-deprivation remedy under California tort
law."

21a

APPENDIX C

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 17-16756
MICAH JESSOP; BRITTAN ASHJIAN,
Plaintiffs-Appellants,
v.
CITY OF FRESNO; ET. AL.,
Defendants-Appellees.

D.C. No. 1:15-cv-00316-DAD-SAB
Eastern District of California, Fresno

ORDER

Filed October 17, 2019
Before: M. SMITH and NGUYEN, Circuit Judges, and RESTANI,* Judge.
The full court has been advised of the petition for rehearing en banc, and no
judge of the court has requested a vote on it. Fed. R. App. P. 35. The petition for rehearing en banc is DENIED.

* The Honorable Jane A. Restani, Judge for the United States Court of International Trade,
sitting by designation.

